No. 21-226

In the
Supreme Court of the United States
LIBERTARIAN PARTY OF OHIO
AND HAROLD THOMAS,
Petitioners,
v.
DON MICHAEL CRITES, OTTO BEATTY, III,
DENNIS BROMMER, CATHERINE A. CUNNINGHAM, NATASHA KAUFMAN,
A. SCOTT NORMAN, AND CHARLETA B. TAVARES,
IN THEIR OFFICIAL CAPACITIES,
Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify, in accordance with Supreme Court Rule 33.1(h), that the BRIEF OF
AMICI CURIAE LIBERTARIAN NATIONAL COMMITTEE, GREEN PARTY OF
THE UNITED STATES, CONSTITUTION PARTY, AND COALITION FOR
FREE AND OPEN ELECTIONS IN SUPPORT OF PETITIONERS, complies with
the Century Schoolbook 12-point font requirement for the text, the 10-point font
requirement for the footnotes, and contains 3,682 words, excluding the parts of the
document exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct.
Executed: September 15, 2021
/s/ William P. Tedards, Jr.
WILLIAM P. TEDARDS, JR.
Counsel of Record
1101 30th Street, NW, Suite 500
Washington, DC 20007
(202) 744-1214
BT@tedards.net
Counsel for Amici Curiae

